APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(November 8, 2019). . . . . . . . . . . . App. 1
Appendix B Entry on Motion for Reconsideration
in the United States District Court
Southern District of Indiana,
Indianapolis Division
(January 9, 2019) . . . . . . . . . . . . App. 12
Appendix C Entry on Pending Motions and
Judgment in the United States
District Court Southern District of
Indiana, Indianapolis Division
(August 3, 2018) . . . . . . . . . . . . . App. 17
Appendix D 15 U.S.C. § 78u-1 . . . . . . . . . . . . App. 46

App. 1

APPENDIX A
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-1243
[Filed November 8, 2019]
_____________________________
SECURITIES AND
)
EXCHANGE COMMISSION,
)
Plaintiff-Appellee,
)
)
v.
)
)
GARY S. WILLIKY,
)
Defendant-Appellant. )
_____________________________ )
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:15-cv-00357-WTL-MJD —
William T. Lawrence, Judge.
SUBMITTED SEPTEMBER 16, 2019* —
DECIDED NOVEMBER 8, 2019

*

We have agreed to decide this case without oral argument
because the briefs and record adequately present the facts and
legal arguments, and oral argument would not significantly aid the
court. Fed. R. App. P. 34(a)(2)(C).

App. 2
Before BAUER, BRENNAN, and ST. EVE, Circuit
Judges.
BAUER, Circuit Judge. Gary Williky appeals a
judgment in favor of the Securities and Exchange
Commission (“SEC”) that followed a bifurcated
settlement agreement regarding Williky’s fraudulent
conduct while working for the Indiana-based company
Imperial Petroleum, Inc. (“Imperial”). This court
addressed the details of Imperial’s fraudulent scheme
in United States v. Wilson, 879 F.3d 795 (7th Cir.
2018). Imperial fraudulently purchased finished
biodiesel and resold it while claiming government
incentives and tax-credits available to companies
producing biodiesel from raw feedstock. Jeffery Wilson,
Imperial’s ex-CEO, hired Williky to artificially inflate
Imperial’s stock through a series of “wash and match
trades” and “scalping” emails. In the 1990s, Williky
similarly engaged in a pattern of “wash and match
trades” for another company led by Wilson. As part of
Imperial, Williky acquired millions of shares of its
stock but failed to lawfully report his ownership levels
when his shares surpassed five percent. At issue in this
appeal is Williky’s conduct once the Imperial fraud
unraveled. By July 2011, Williky knew Imperial
misrepresented the source of its biodiesel to investors
and, by November, knew the complete extent of
Imperial’s fraud. Williky sold off the entirety of his
Imperial shares by February 27, 2012, and avoided a
loss of $798,217.
The SEC sued to permanently enjoin Williky from
violating federal securities law, to enjoin Williky from
acting as an officer or director of a public company, and

App. 3
to disgorge his financial gains. The SEC further sought
to impose financial penalties, including a civil penalty
for Williky’s insider trading. Before Williky faced his
deposition, he entered into a bifurcated settlement with
the SEC, conceding his involvement in the fraudulent
scheme and agreeing that the district court would
determine the financial remedies to be assessed. The
SEC requested the statutory maximum civil penalty of
$2,394,651 for insider trading, calculated as three
times Williky’s avoided losses. Williky objected,
arguing that the SEC’s proposed judgment ignored his
cooperation with various governmental agencies
investigating Imperial’s fraud. The district court denied
the request for the maximum civil penalty as excessive
and entered a judgment of $1,596,434, equal to two
times the avoided losses. On appeal, Williky argues
that the judgment still ignores his cooperation as a
whistleblower and is thus an abuse of discretion. We
find that the district court adequately assessed the
value of Williky’s cooperation and affirm.
I. BACKGROUND
In 2009, Gary Williky entered into confidential
negotiations with Imperial’s ex-CEO Jeffery Wilson
and accepted a financial public relations role with
Imperial. In reality, Wilson hired Williky to artificially
inflate Imperial’s stock through illegal market
manipulation. This was not the first time Wilson and
Williky engaged in securities fraud. Williky’s longstanding relationship with Wilson dated back to the
1990s. Williky settled a lawsuit with the SEC for illegal
“wash and match trades” that he committed for
another company led by Wilson. SEC v. Williky, et al.,

App. 4
94-cv-2088 (N.D. Tex.). Although Williky’s involvement
in the Imperial scheme is not directly at issue in this
appeal, we recount some of his fraudulent activities as
context for Williky’s insider trading.
Williky first sought to artificially raise Imperial’s
stock price by increasing its trading volume through
“wash and match trades.” Wash trades refer to trades
that occur without a change in beneficial ownership.
Match trades, or “matched orders,” are trades in which
orders are entered with the knowledge that
substantially equivalent orders will be made by the
same or different person. These fraudulent tactics
create a false perception of market activity that does
not reflect the true supply and demand for the
securities. Inflating the volume of trades attracts
additional market participants and thereby artificially
increases stock price. Williky used multiple brokerage
accounts in his and his wife’s names to conduct a series
of at least twenty “wash and match trades” from March
4, 2010, to January 11, 2012. On many days within this
time period, Williky was responsible for between 50%
to 100% of Imperial’s trading volume.
Second, Williky personally sent out “scalping”
emails touting the potential value of Imperial’s stock
without disclosing his own relationship to Imperial or
his intention to contemporaneously sell Imperial stock.
Williky sent these emails out to more than 200
recipients. In the days following the emails, Williky
sold Imperial stock and earned profits of over $60,000.
During this time, Williky acquired millions of shares
and at many points owned more than five percent of

App. 5
the company’s stock without disclosing his ownership
levels as required by federal securities law.
By July 10, 2011, Williky learned that Imperial was
lying to investors about its biodiesel production.
Specifically, a confidential memo informed Williky that
Imperial was using partially processed oil or fat to
make biodiesel. This information directly contradicted
representations Williky had previously made that the
fuel came from raw feedstock. Moreover, a hedge fund
informed Imperial that it would not invest since the
production of biodiesel from such materials failed to
qualify for the government incentives that Imperial
claimed. By November 18, 2011, Williky learned the
complete extent of Imperial’s fraud after the new
Imperial CEO, John Ryer, secretly recorded a
conversation with the owner of Imperial’s main
suppler, Joe Furando. Ryer told Williky that Imperial
was purchasing finished fuel from Furando’s company
and later provided Williky with the tape. While in
possession of all this confidential information, Williky
sold off the entirety of his shares by February 27, 2012,
avoiding a loss of $798,217.
As he sold his shares, Williky contacted federal
authorities with the hopes of becoming a whistleblower.
However, though Williky believes he provided the
critical information that toppled Imperial, the SEC
presented evidence that it and other federal agencies
believed the Imperial scheme was already unraveling.
Williky anonymously called the Environmental
Protection Agency on December 27, 2011, to discuss
suspected wrongdoing without naming Imperial.
Although Williky claims this led to the investigation of

App. 6
Imperial, the SEC began investigating Imperial as
early as November 2011 and interviewed its first
witness on January 23, 2012, weeks before Williky first
reported Imperial’s violations on March 13, 2012.
Williky also contends that on this day he provided
authorities with the confidential tape recording
between Ryer and Furando, which he argues was the
“smoking gun” that led to the indictment and
conviction of several co-conspirators in the Imperial
scheme. Furthermore, Williky says that as part of his
productions to the SEC, he provided 36 documents that
were ultimately used in Wilson’s trial.
On March 2, 2015, the SEC charged Williky with
violating federal securities laws through market
manipulation and insider trading. On August 10, 2015,
the district court sua sponte administratively closed the
case pending the resolution of the criminal actions
related to the Imperial scheme. The case was reopened
on January 19, 2017, but Williky did not file his answer
to the complaint until February 21, 2017, only after the
SEC had moved for a clerk’s entry of default. Once
discovery commenced, Williky objected to the
deposition of himself and his wife because of scheduling
issues that the district court found had “absolutely no
basis.” Finally, instead of facing his deposition, Williky
entered into a bifurcated settlement with the SEC in
which Williky would accept the SEC’s proposed
injunctions, and the district court would determine the
financial remedies to be assessed against Williky based
on the facts of the complaint.
The SEC thereafter filed its motion for financial
remedies, requesting the disgorgement of $2,101,334 in

App. 7
ill-gotten gains plus $427,931 in prejudgment interest,
along with a civil penalty for insider trading of at least
$2,394,651. Williky objected to the request for a civil
penalty at the statutory maximum of three times his
avoided losses on the basis that it “completely ignore[d]
his cooperation with multiple governmental agencies as
well as his whistleblowing activities.” The SEC argued
Williky’s claims of cooperation were exaggerated, but
even if true, would not warrant a substantial reduction
in the civil penalty. The district court found that the
request for the maximum penalty was “excessive” and
instead decided that a “penalty of $1,596,434, equal to
two times the amount of disgorgement, is appropriate.”
The district court explained this was not the first time
Williky had to settle a securities fraud dispute and that
Williky had not taken responsibility for his actions by
claiming he only committed insider trading because he
was stressed and not thinking clearly. Finally, the
district court found Williky’s cooperation was “of
limited value.” Williky then filed a motion for
reconsideration arguing the court did not accurately
determine the extent of his cooperation. The district
court denied the motion, having found “no
misapplication of law” and characterizing Williky’s
arguments as a “disagreement with the conclusion and
a bare assertion that the conclusion must have been
due to a mistaken reliance on the evidence.”
II. DISCUSSION
Williky appeals the civil penalty of $1,596,434 for
insider trading and asks this court to order a penalty of
no more than $798,217. Williky argues that the trial
court incorrectly assessed the value of his cooperation

App. 8
with federal authorities and ignored the fact he entered
into a bifurcated settlement, which further proved his
cooperation.
Along with other circuits, we review the district
court’s decision to impose a civil penalty for abuse of
discretion. SEC v. Happ, 393 F.3d 12, 32 (1st Cir.
2004); SEC v. Rajaratnam, 918 F.3d 36, 41 (2d Cir.
2019); SEC v. Life Partners Holdings, Inc., 854 F.3d
765, 781 (5th Cir. 2017). A court abuses its discretion
only if “the record contains no evidence upon which the
court could have rationally based its decision; the
decision is based on an erroneous conclusion of law; the
decision is based on clearly erroneous factual findings;
or the decision clearly appears arbitrary.”United States
v. Z Investment Properties, LLC, 921 F.3d 696, 698 (7th
Cir. 2019) (numerical ordering omitted).
Both parties concur that in determining a civil
penalty for violations of federal securities law, the
court should generally consider factors such as: “the
seriousness of the violation; the defendant’s scienter;
the repeated nature of the violations; whether the
defendant has admitted wrongdoing; the losses or risk
of losses caused by the conduct; any cooperation
provided to enforcement authorities; and ability to
pay.” SEC v. Zenergy Int’l, Inc., 2016 WL 5080423, at
*16 (N.D. Ill. Sept. 20, 2016) (numerical ordering
omitted); see also SEC v. Custable, 1996 WL 745372, at
*2–5 (N.D. Ill. Dec. 26, 1996), aff’d, 132 F.3d 36 (7th
Cir. 1997). These factors are certainly relevant, but we
should also point out that the civil penalty for insider
trading comes from its own independent statutory
provision, the Insider Trading Sanctions Act. 15 U.S.C.

App. 9
§ 78u-1(a)(2). Whereas typical civil penalties follow a
three-tier system that are assessed per violation or are
otherwise limited to the gross amount of ill-gotten gain,
the Insider Trading Sanctions Act calculates the
penalty as a multiple of the losses avoided due to
insider trading. It is therefore clear that the overriding
concern of the civil penalty against insider trading is to
“effect general deterrence and to make insider trading
a money-losing proposition.” Rajaratnam, 918 F.3d at
41.
In this light, Williky’s focus on the nobility of his
whistleblowing endeavors misses the mark since the
civil penalty’s main design is to deter insider trading,
not to encourage whistleblowing and cooperation after
the fact. Thus, absent any evidence of extraordinary
cooperation, the most pertinent facts on record are that
Williky is a recidivist federal securities law offender
who attempted to avoid responsibility in his district
court proceedings and, on appeal, still fails to admit
any wrongdoing related to insider trading. Given all of
the facts and circumstances, the district court properly
determined that a civil penalty was necessary to serve
as an effective deterrent. Even when considering the
factors the parties proposed, Williky has only
addressed the cooperation he provided to federal
authorities and made assertions about his innocence
that are precluded by the terms of the bifurcated
settlement stating he would accept the complaint as
true.
The district court also properly weighed the value of
Williky’s cooperation. Williky argues that the award of
two times the disgorgement amount “ignored Williky’s

App. 10
cooperation with multiple governmental agencies as
well as his whistleblowing activities.” Rather, the
district court explicitly stated that his cooperation was
of limited value. Williky further contends that the tape
and evidence he provided were directly used in the
indictment, prosecution and conviction of the criminal
defendants in the Imperial fraud. The SEC argues that
Imperial was under investigation before Williky’s tip,
that Williky never admitted his wrongdoing in his
interviews with federal authorities, and that he was
not an essential part of the criminal prosecution since
he was not called to testify in Wilson’s criminal trial.
The SEC adds that all the documents that Williky
provided were only given in response to compulsory
subpoenas. Here, the district court assessed the value
of Williky’s cooperation and determined his overall
conduct did not warrant the maximum statutory
penalty. We do not agree that the district court abused
its discretion in deciding to impose a civil penalty of
two times Williky’s avoided losses.
Finally, Williky also argues that he is entitled to a
reduced penalty because he entered into a bifurcated
settlement with the SEC. Williky seems to view this as
another example of his cooperation and claims that the
SEC consequentially spent little to no funds to
prosecute him. Williky then cites a string of district
court opinions to assert that courts assessing penalties
in bifurcated settlements either do not assert a penalty
or assert a penalty equaling the ill-gotten gain. Not
only are all of these cases about the general statute
providing for civil penalties as opposed to the Insider
Trading Sanctions Act, but not one of the cited cases
discusses the bifurcated settlement as a basis for

App. 11
determining the civil penalty. Regardless, even if
entering into a bifurcated settlement may be a means
of cooperation that merits consideration, Williky has
been notably uncooperative throughout the course of
litigation, from failing to answer the complaint in a
timely manner to attempting to object to his deposition
on flimsy grounds. The litigation has been pending for
multiple years and the SEC has undoubtedly spent
significant resources in litigating the matter against
Williky. Allowing Williky to flagrantly commit insider
trading and then settle to avoid civil penalties would
create a perversive incentive that undermines the
purpose of the statute.
III. CONCLUSION
We conclude that the district court did not abuse its
discretion in deciding to impose a civil penalty of
$1,596,434 on Williky. The court adequately assessed
the extent of Williky’s cooperation and whistleblowing
activities when it determined to set a civil penalty
equal to two times the amount of the losses he avoided.
The judgment of the district court is AFFIRMED.

App. 12

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
Cause No. 1:15-cv-0357-WTL-MJD
[Filed January 9, 2019]
_____________________________
U.S. SECURITIES AND
)
EXCHANGE COMMISSION, )
)
Plaintiff,
)
)
vs.
)
)
GARY S. WILLIKY,
)
)
Defendant.
)
_____________________________ )
ENTRY ON MOTION FOR RECONSIDERATION
This cause is before the Court on the Defendant’s
Motion for Reconsideration and the Plaintiff’s response
thereto (Dkt. Nos. 64 and 66). The Defendant did not
file a reply in support of the motion, and the time for
doing so has expired. The Court, being duly advised,
DENIES the Defendant’s motion for the reasons set
forth below.

App. 13
I. PROCEDURAL BACKGROUND
On August 3, 2018, pursuant to the bifurcated
settlement agreement, Dkt. No. 34, and upon a
determination of the Plaintiff’s motion for penalties,
Dkt. No. 48, the Court ordered that the Defendant pay
(1) disgorgement of $798,217 for insider trading, along
with $159,110.13 in prejudgment interest;
(2) disgorgement of $65,617 for scalping emails, along
with $14,866.97 in prejudgment interest; (3) a civil
penalty of $150,000 for the non-insider trading counts;
and (4) a civil penalty of $1,596,434 for insider trading.
On August 30, 2018, the Defendant moved for
reconsideration of the Court’s decision to impose a civil
penalty of $1,596,434 for insider trading, an amount
equal to two times the ill-gotten gains.
II. LEGAL STANDARD1
The purpose of a motion to alter or amend judgment
under Federal Rule of Civil Procedure 59(e) is to have
the Court reconsider matters “properly encompassed in
a decision on the merits.” Osterneck v. Ernst and
Whinney, 489 U.S. 169, 174 (1988). To receive relief
under Rule 59(e), the moving party “must clearly
establish (1) that the court committed a manifest error
of law or fact, or (2) that newly discovered evidence
precluded entry of judgment.” Edgewood Manor
Apartment Homes, LLC v. RSUI Indem. Co., 733 F.3d

1

Although the Plaintiff cites both Federal Rules of Civil Procedure
59(e) and 60(b) in his motion, because the Plaintiff filed his motion
within twenty-eight days of the entry of judgment, the Court
considers the Plaintiff’s motion pursuant to Federal Rule of Civil
Procedure 59(e).

App. 14
761, 770 (7th Cir. 2013). A “manifest error” means
“wholesale disregard, misapplication, or failure to
recognize controlling precedent.” Oto v. Metropolitan
Life Ins. Co., 224 F.3d 601, 606 (7th Cir. 2000). Relief
through a Rule 59(e) motion for reconsideration is an
“extraordinary remed[y] reserved for the exceptional
case.” Foster v. DeLuca, 545 F.3d 582, 584 (7th Cir.
2008).
III. DISCUSSION
The Defendant makes several arguments in support
of its motion for reconsideration. The Court will
address each of these arguments in turn.
First, the Defendant argues “that the Court’s
August 3, 2018 order was a result of mistake . . . in
that the Court was not presented with a clear
understanding of the extent of [the Defendant’s]
cooperation . . . .” Dkt. No. 64 at 5. Specifically, the
Defendant argues that “he was not able to respond to
the Declarations of Victoria Madtson or Scott Hlavecek,
which were attached as Exhibits 5 and 12 to the
[Plaintiff’s] Reply . . . .” Id. Notably, however, the
Defendant did not seek leave to file a sur-reply to rebut
the Plaintiff’s claims.
However, even considering the substance of the
Defendant’s arguments, the Defendant’s arguments
fail. As the Plaintiff notes, the Defendant “presents no
new, let alone newly discovered, evidence.” Dkt. No. 66
at 4. Instead, the Defendant points to previously
submitted evidence and argues that to the extent Court
relied on such evidence, it did so mistakenly and
therefore reconsideration is required. The Defendant,

App. 15
however, fails to point to any part of the Court’s
opinion which suggests that any error was made. The
Defendant’s argument amounts to a disagreement with
the conclusion and a bare assertion that the conclusion
must have been due to a mistaken reliance on the
evidence. Without more, the Court is not convinced
that reconsideration of its decision is appropriate.
Second, the Defendant cites the Plaintiff’s reliance
on S.E.C. v. Alanar, Inc., No. 1:05-cv-1102, 2008 WL
2410422 (S.D. Ind. May 6, 2008), in its reply brief as
somehow indicative of an error on the part of the Court
requiring reconsideration. Again, the Defendant did not
seek leave to file a sur-reply. Nevertheless, the
Defendant seems to argue that because his case is
distinguishable from Alanar, his penalty should be
reduced. The Defendant, however, fails to point to any
misapplication of Alanar by the Court which would
require reconsideration. Indeed, Alanar is not even
cited in the Court’s August 3, 2018, entry. Finding no
misapplication of law, the Court rejects the Defendant’s
argument.
The remainder of the Defendant’s brief is spent
describing evidence provided by the Defendant to the
government and its alleged value. Nowhere, however,
does the Defendant present new evidence or argue that
the Court misconstrued the evidence. Instead, the
Defendant’s contention is that because the Court did
not consider the Defendant’s cooperation in a manner
that led to a lesser penalty, it was erroneous. The
Court, however, rejects this contention, and notes that
it did consider the Defendant’s cooperation. See Dkt.
No. 62 at 16 (“While [the Defendant] argues that his

App. 16
penalty should be reduced as result of his cooperation,
his cooperation was of limited value.”) (internal
citations omitted). Accordingly, the Court DENIES the
Defendant’s motion for reconsideration.
IV. CONCLUSION
For the reasons set forth above, the Defendant’s
motion for reconsideration, Dkt. No. 64, is DENIED.
SO ORDERED: 1/9/2019
/s/William T. Lawrence
Hon. William T. Lawrence, Senior Judge
United States District Court
Southern District of Indiana
Copies to all counsel of record via electronic notification

App. 17

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
Cause No. 1:15-cv-0357-WTL-MJD
[Filed August 3, 2018]
_____________________________
U.S. SECURITIES AND
)
EXCHANGE COMMISSION, )
)
Plaintiff,
)
)
vs.
)
)
GARY S. WILLIKY,
)
)
Defendant.
)
_____________________________ )
ENTRY ON PENDING MOTIONS
This cause is before the Court on the Securities and
Exchange Commission’s (“SEC”) Motion for Entry of
Judgment, by Consent, of Permanent Injunction and
Other Relief, Dkt. No. 34, and Motion for Injunctions,
Disgorgement, Civil Penalties, and Entry of Final
Judgment, Dkt. No. 38. The motions are fully briefed
and the Court, being duly advised, grants the relief set
forth below.

App. 18
I. Facts
The parties have entered into a bifurcated
settlement agreement in which the parties agree that
(1) Gary S. Williky shall be enjoined from violating the
provisions of the federal securities laws at issue in the
Complaint; (2) Williky shall be enjoined from serving as
an officer or director of a public company; and (3) the
Court shall determine the financial penalties to be
assessed against Williky via motion. Dkt. No. 34-2 at 12. The SEC seeks to disgorge Williky of profits and
prejudgment interest and to impose civil penalties
against Williky. Pursuant to the consent order, Williky
is precluded from arguing that he did not violate the
federal securities laws as alleged in the Complaint, and
the Court is to accept the allegations in the Complaint
as true. Dkt. No. 34-2 at 2-3.
A. Stipulated Wrongdoing
As noted, the parties have stipulated that the Court
is to accept the allegations in the Complaint as true.
Dkt. No. 34 at 2. These allegations, in relevant part,
are summarized below.
Gary S. Williky is a 55-year-old resident of
Colleyville, Texas, who was an investor-relations
consultant for the Evansville, Indiana-based public
company Imperial Petroleum, Inc., from February 2010
through December 2011.
1. Williky’s Market Manipulation
While working for Imperial, Williky attempted to
increase Imperial’s trading volume, which conveys to
investors liquidity of — and public demand for — a

App. 19
stock. Between 2009 and 2012, Williky traded Imperial
stock in multiple brokerage accounts. At least three of
these accounts were in his wife’s name, but Williky
controlled all trading in his own accounts and in his
wife’s accounts. From March 4, 2010, through January
11, 2012, Williky used at least five of these accounts to
conduct a series of at least twenty wash and match
trades.1
Williky’s trading made up a substantial percentage
of Imperial’s trading volume between at least March 4,
2010, and January 11, 2012. Williky’s trades resulted
in increased trade volume and a higher stock price. On
many days, to increase volume and stock price, Williky
both bought and sold Imperial shares. On more than
seventy days within that time period, Williky’s trading
was responsible for more than fifty percent of the
trading volume. At least five of his wash and match
trades were made on such days. On more than fifteen
days, Williky was responsible for one hundred percent
of Imperial’s trading volume.

1

Wash trades, also called “wash sales,” are trades in which the
beneficial ownership of the securities does not change. Match
trades, also called “matched orders” are trades in which orders are
entered with the knowledge that orders of substantially the same
size, at substantially the same time and price, have been or will be
entered by the same or different persons. Such transactions
operate as a fraud or deceit on the market because the trades,
along with their contrived prices, are reported to the market and
thereby create a false appearance of market activity that does not
reflect the true supply and demand for the securities at issue. The
inflated volume is designed to attract additional market
participants and thereby artificially increase the stock price.

App. 20
In conducting his manipulative wash and match
trades, Williky acted with scienter. He: (1) controlled
trading out of each of the relevant accounts, (2) placed
the orders for the trades and (3) knew — or recklessly
disregarded — that the trades he directed involved no
substantive change of beneficial ownership and/or
involved orders of substantially the same size and same
price, placed at substantially the same time.
2. Williky’s Scalping Emails
While working for Imperial and personally trading
Imperial stock, Williky hired public relations firms to
publicize Imperial and personally sent out emails to
more than two hundred recipients, including friends,
family members, and industry connections. In his
emails, Williky promoted Imperial stock without
disclosing that he intended to sell his Imperial shares.
For example, on October 5, 2010, a company Williky
hired sent out a news release email reporting that
Imperial’s projected revenue for 2011 was more than
$50 million, that Imperial was net profitable, and that
the stock price had recently tripled. Williky then
forwarded the message to his personal connections
without disclosing that he was employed by Imperial or
that he intended to sell Imperial shares.
Similarly, on December 6, 2010, Williky emailed
another message promoting Imperial’s stock. He
claimed that the company was undervalued by more
than four hundred percent and that the stock price,
then trading around $0.55, should be in the range of
$2.00 to $2.50. Williky again failed to disclose his

App. 21
professional relationship with Imperial or the fact that
he intended to sell Imperial shares.
Finally, Williky sent another mass email promoting
Imperial stock on June 14, 2011. Williky told recipients
that the stock had risen almost three hundred percent,
but he expected that it still had “a long way to go.” He
advised “anyone who has not considered becoming a
shareholder do so before the stock price is out of
current levels of $1.20.” Again, Williky failed to disclose
his relationship with Imperial and the fact that he
intended to sell Imperial shares.
In the days immediately following each of these
emails — in which he told his family, friends and
business connections that Imperial was a great buy —
Williky was a net seller of Imperial stock and earned
profits of more than $60,000.
Williky acted with scienter: he knew when he sent
the promotional emails that he had an undisclosed
conflict of interest in that he owned — and intended to
sell — Imperial shares. This omission was material. A
reasonable investor would have considered it important
that Williky had a material conflict of interest because
at the same time that he was recommending that
investors purchase Imperial shares, Williky intended
to sell his stock.
3. Williky’s Ownership Levels
Between 2009 and February 2012, while working for
Imperial and trading its stock, Williky acquired
millions of shares of Imperial stock. At multiple points
throughout this time period, he owned more than five
percent of the company’s outstanding stock.

App. 22
In one example, at the end of August 2010, Williky
owned more than 1.67 million shares of Imperial stock.
At the time, Imperial had 21,364,813 shares
outstanding. Thus, Williky owned more than 7.8
percent of Imperial’s outstanding stock. He maintained
this approximate ownership level until at least October
26, 2010.
Williky was required to file, but never filed, a
beneficial ownership report form with the Commission
disclosing that he owned more than five percent of the
company’s stock.
4. Williky’s Insider Trading
a. The Imperial Fraud
Imperial falsely claimed that it produced more than
28 million gallons of biodiesel from at least May 2010
through at least January 2012. In reality, Imperial
used middlemen to buy finished biodiesel and created
fake invoices falsely describing the biodiesel as
“feedstock.”
By falsely claiming it had produced the biodiesel
from raw materials, Imperial was able to illegally claim
government incentives and tax credits for biodiesel
production and sell the biodiesel for substantially more
than its acquisition price. Specifically, Imperial was
able to sell the fuel for more than $100 million,
realizing gross profits of more than $50 million.
This illegal and unsustainable business model was
hidden from Imperial’s investors and prospective
investors. Instead, in periodic reports filed with the
Commission and provided to shareholders, and in

App. 23
separate statements made to prospective investors,
Imperial misrepresented the fundamental nature of its
business model by falsely stating that it produced
biodiesel from raw feedstock. Imperial failed to disclose
that its business was almost entirely illegal and
unsustainable because the substantial government
incentives and tax credits it attached to its biodiesel
were available only to those who manufactured
biodiesel from raw materials.
By at least July 10, 2011, Williky knew that
Imperial was not telling the investing public the truth
about its operations. By at least that date, Williky was
told that Imperial was using “off-spec” fuel in its
manufacturing process. This was a nonpublic cover
story Imperial circulated internally — and to select
third parties subject to confidentiality agreements — to
conceal the true extent of the Imperial fraud. By
August 2011, Williky explicitly was told that
manufacturing biodiesel from “off-spec” fuel was
contrary to representations Imperial had made to
investors. By November 2011, Williky knew that
Imperial’s purported biodiesel operations were a
complete sham and that Imperial was lying to the
investing public.
Williky took advantage of this material, nonpublic
information by selling Imperial shares throughout the
period between July 10, 2011, and February 27, 2012,
when he sold his last shares. During this period, by
selling his Imperial shares, Williky avoided total losses
of approximately $800,000.

App. 24
b. Williky’s Knowledge of the “Off-Spec” Cover Story
In June 2011, Imperial’s then-CEO, Jeff Wilson, and
Williky began promoting Imperial to potential
investors during multiple “Road Show” conference calls
set up by the investment bank hired as an exclusive
placement agent for a proposed offering of Imperial
securities (the “Investment Bank”). During the Road
Show calls, Wilson repeated false claims that Imperial
produced biodiesel from raw feedstock, primarily
premium white grease (i.e., chicken fat). But by July
10, 2011, Williky knew that Imperial’s representations
to investors were false. By that date, Imperial
executives had informed Williky that Imperial was
producing biodiesel from “off-spec” materials as
opposed to raw feedstock.
Imperial’s “off-spec” cover story was designed to
prevent discovery of the true nature of its biodiesel
operations. Imperial executives informed Williky that
they were producing biodiesel from fuel that was not up
to standards and required additional processing before
it could be sold as biodiesel. In fact, Imperial did not
use “off-spec” materials as feedstock: it purchased
finished biodiesel, made no changes to it, and
fraudulently certified that it produced the biodiesel to
attach tax credits and government incentives.
Although it was a lie, the “off-spec” cover story was
revealing. In hearing this story from Imperial
executives, Williky was privy to the nonpublic — and
true — information that Imperial was not producing its
biodiesel from raw feedstock as it claimed in its public
filings and representations to investors and potential
investors. Notably, Williky also knew that the one

App. 25
potential investor who heard Imperial’s purported use
of “off-spec” materials chose not to invest in Imperial.
In one of the Road Show calls, the Investment Bank
introduced Imperial to a potential hedge fund investor.
In mid-July, after entering into a nondisclosure
agreement, the hedge fund agreed to provide Imperial
up to $27.5 million in exchange for notes and Imperial
stock, contingent on the satisfactory completion of its
due diligence review. After the hedge fund tentatively
agreed to invest, it began asking questions about
Imperial’s feedstock vendors and the sustainability of
its profit margins.
On August 1, 2011, Wilson informed the hedge fund
that Imperial used “off-spec” materials to produce
biodiesel and that in doing so Imperial achieved
favorable margins. An Investment Bank official
working with Imperial expressed concern about this
revelation. After he learned of Wilson’s statement, the
Investment Bank official had a telephone conversation
with Wilson and Williky. In that conversation, Wilson
acknowledged that very little of Imperial’s revenue
came from processing raw feedstock, but he falsely
stated that most of the company’s revenues came from
its use of “off-spec” materials.
The Investment Bank official further told Wilson
and Williky that none of Imperial’s Commission filings
mentioned the use of “off-spec” materials and asked
whether they thought that Imperial’s Forms 10-K and
10-Q should be updated so that investors were not
misled. Wilson agreed that Imperial’s filings should be
amended. Imperial never amended any of its public
filings to disclose that it was using “off-spec” materials.

App. 26
By August 5, 2011, the hedge fund informed
Imperial that any biodiesel manufactured from “offspec” materials would not qualify for government
incentives and therefore Imperial’s sale of such fuel
with attached incentives was illegal. That same day,
Wilson relayed these concerns to Williky by email and
reiterated the hedge fund’s conclusion that if Imperial
was in fact using “off-spec” materials, it could not
attach the valuable government incentives to its
biodiesel, because they were available only if Imperial
was producing biodiesel from raw feedstock. By August
9, 2011, the hedge fund informed Imperial that because
Imperial was not manufacturing biodiesel from raw
materials, it would not invest in Imperial.
Imperial’s disclosure in August 2011 to the
prospective hedge fund investor regarding its use of
“off-spec” fuel reflected material information never
disseminated to the investing public: Imperial was not
manufacturing biodiesel from raw materials.
While in possession of — and on the basis of — the
nonpublic information that Imperial did not exclusively
manufacture biodiesel from raw feedstock, Williky was
a significant net seller of Imperial stock and avoided
significant losses. From July 10, 2011 until November
18, 2011, Williky avoided losses of approximately
$495,365 by trading in Imperial stock.
c. Williky’s Knowledge of the Imperial Fraud
After August 2011, Williky gained even more
material, nonpublic knowledge regarding Imperial’s
fraudulent business model and yet continued to be a
net seller in Imperial stock. Aside from occasional

App. 27
purchases of Imperial shares in the market, Williky
spent the next several months unloading his shares.
In early November 2011, Wilson resigned as
Imperial’s president and Chairman of the Board.
Imperial named Williky’s long-time friend John Ryer to
succeed Wilson. After Ryer was named president, Joe
Furando, the owner of Imperial’s main supplier,
demanded an in-person meeting at Furando’s offices in
New Jersey. Williky advised Ryer to secretly record his
conversation with Furando.
On November 17, 2011, Ryer met with Furando in
New Jersey and recorded their conversation. Ryer’s
recording captured Furando explaining Imperial’s true,
illegal business model. Furando explained that
Imperial purchased finished fuel, as opposed to
feedstock or “off-spec” materials, from Furando’s
company, pretended to manufacture that fuel so that it
could claim government incentives, and then resold the
fuel unchanged. The recording established that
Imperial’s true business model was far different from
what it represented to the public and investors.
On or before November 18, 2011, Ryer called
Williky and told him that Furando revealed that
Imperial was cheating by purchasing finished fuel, not
feedstock, from Furando’s company. The following
week, Ryer provided Williky with the secret recording
Ryer had made.
The information Williky learned from Ryer and
Ryer’s recording about Imperial was not disclosed to
the general public before or after the date of the
recording. At this time, Williky knew that Imperial was

App. 28
not only lying to investors about manufacturing fuel
from feedstock, but also that its entire biodiesel
business was a fraud. From November 19, 2011, until
February 27, 2012 — while in possession of, and on the
basis of, that material nonpublic information — Williky
took advantage, using that information to avoid losses
of approximately $302,852 by selling Imperial stock.
5. Williky’s Threat to Report Imperial to the SEC and
the Environmental Protection Agency
In addition to trading Imperial stock for his
personal accounts while in possession of secret
information from Ryer’s recording, Williky used that
information to extort $1.24 million in cash and an
additional 300,000 shares from Imperial in the form of
additional compensation.
On November 30, 2011, Williky told Imperial’s
counsel that if Imperial did not pay him $1.3 million
and issue him new Imperial shares and warrants, he
would report the company to the SEC and EPA.
Williky’s effort to profit from his knowledge of
Imperial’s fraud was successful. On December 2, 2011,
Williky and Imperial entered into a Severance,
Confidentiality and Nondisclosure Agreement
providing that Imperial would pay Williky $1,237,500
and issue him 300,000 shares of common stock. In
return, Williky would keep confidential information he
had learned in the course of his relationship with the
company and would not disparage Imperial.
After receiving the 300,000 shares of Imperial stock
— but before the public learned of the Imperial fraud
— Williky sold those shares.

App. 29
II. Discussion
A. Disgorgement and Prejudgment Interest
The SEC seeks to disgorge Williky of his illegal
profits. “Disgorgement is a form of restitution,” SEC v.
Lipson, 278 F.3d 656, 662-63 (7th Cir. 2002), which
“extends only to the amount with interest by which the
defendant profited from his wrongdoing,” SEC v.
MacDonald, 699 F.2d 47, 54 (7th Cir. 1983). The
amount disgorged “need only be a reasonable
approximation of profits causally connected to the
wrongdoing” and “any risk of uncertainty in calculating
disgorgement should fall on the defendant whose
conduct created the uncertainty.” SEC v. Patel, 61 F.3d
137, 139-40 (2d Cir. 1995) (internal quotation marks
and alterations omitted). An award of prejudgment
interest should accompany disgorgement because
“‘prejudgment interest is an element of complete
compensation.’” SEC v. Koenig, 557 F.3d 736, 745 (7th
Cir. 2009) (quoting West Virginia v. United States, 479
U.S. 305, 310 (1987)) (alteration removed). Williky does
not contest the validity of the SEC’s calculations, but
argues that the SEC has overreached with regard to
certain amounts sought.
1. Proceeds of Insider Trading
The SEC seeks to disgorge $798,217 in proceeds of
Williky’s insider trading. Dkt. No. 39 at 13. Williky
categorizes these proceeds as “$495,365 for trading
from July 10, 2011, to November 18, 2011 based on
Williky’s ‘knowledge of the off-spec’ fuel in the
manufacturing process,” and “$302,852 for trading
from November 19, 2011 – February 27, 2012 after

App. 30
Williky received the transcript of the Furando/Ryer
conversation.” Dkt. No. 48 at 20. Williky does not
dispute the disgorgement of $302,852 based on his
trading after receiving the transcript, but does dispute
the disgorgement of $495,365 based on his knowledge
of the “off-spec” cover story.
In disputing this disgorgement, Williky argues
The test for materiality is that “there must
be a substantial likelihood that the disclosure of
the omitted fact would have been viewed by the
reasonable investor as having significantly
altered the ‘total mix’ of information made
available.” TSC Indus., Inc. v. Northway, 426
U.S. 438 (1976). However, Imperial never stated
to the public that it was producing biodiesel
EXCLUSIVELY from “raw feedstock” as stated
by the SEC. Imperial’s statement in its Form 10Q, publicly filed on October 14, 2011, stated that
“E-biofuels uses waste grease and oils including
premium white grease (chicken fat) as its
primary feedstock for the production of its
products.” [Exh. 10] The memo provided to
Williky on August 1, 2011 discussed processing
partially processed oil or fat into biodiesel and
certifies that the product imported by Caravan
is a ‘feedstock with a pathway that is approved
and qualifies under RFS2.” [See, Exh. 5] Thus,
the public statement in the 10-Q and the
“propriety information” in the “highly
confidential” memorandum provided to Williky
are not inconsistent, particularly to the lay
person (which Williky certainly was). There is no

App. 31
substantial likelihood that a reasonable
shareholder would have considered whether eBiofuels was creating its biofuel EXCLUSIVELY
(which is what the SEC seems to read the work
“primary” to mean) from “waste grease and oils”
as disclosed on the 10-Q versus at least some of
E-biofuels product being produced from imported
materials that were a feedstock “with a pathway
that is approved and qualifies under RFS2.”
Certainly, Williky did not think the work
“primary” meant “exclusively” or that “waste
grease and oils” was contrary to or inconsistent
with the memo mention of “feedstock with a
pathway that is approved and qualifies under
RFS2” so long as the end product is the same—
which Williky believed to be the case. [Williky
Declaration, ¶ 6]
Further, from the date Williky was provided
with multiple opinions from experts saying
Imperial’s product was viable, Williky firmly
believed that the company and product were
solid and sustaining. [Williky Declaration, ¶ 7]
Williky’s August 2011 review of the “Off Spec
Methly Ester” memo (Exh. 5) and the ThirdParty Engineering Review (Exh. 6) written by
persons with engineering degrees from
prestigious school who were clearly more
knowledgeable in the biofuel field than Williky
with his liberal arts degree in physical education
from Arizona State left him with no concerns
that Imperial’s product was anything but a
green energy gold mine for investors. [Williky
Declaration, ¶ 7] He did not consider the

App. 32
difference to be material and his knowledge of
the memo was never a factor in his decision to
trade. [Williky Declaration, ¶ 7]
Dkt. No. 48 at 20-22.
While it is unclear to the Court exactly what Williky
means by the above, he appears to be claiming that he
did not violate the federal securities law as alleged in
the Complaint because the “off-spec” cover story was
not material to investors. However, the parties have
stipulated that Williky is precluded from arguing that
he did not violate the federal securities law as alleged
in the Complaint. Dkt. No. 34-2 at 2. The above seems
to be an attempt to do so. Therefore, the Court finds it
appropriate to order disgorgement of this amount as
well, and AWARDS $798,217 in disgorgement.
2. Proceeds of Scalping Emails
The SEC seeks to disgorge $65,617 related to
Williky’s “scalping emails,” which Williky earned by
promoting Imperial stock while at the same time
selling his own shares. Dkt. No. 39 at 14. Williky does
not contest the disgorgement of these proceeds, Dkt.
No. 48 at 26, and the Court AWARDS $65,617 in
disgorgement.
3. Extortion/Severance Payment
The SEC seeks to disgorge $1,237,500 from Williky
for what it characterizes as an extortion payment and
what Williky characterizes as a severance package. In
response to the SEC’s request, Williky argues he was
not put on notice that the SEC would seek such an
award and that “[t]here was no cause of action asserted

App. 33
for ‘extorting’ and it is not part of the requested
disgorgement in the complaint.” Dkt. No. 48 at 26. In
response to this argument, the SEC notes that the
Complaint does provide the allegations which form the
basis of this award and that therefore Williky was put
on notice.
The Court agrees with Williky. While the SEC
points to a section in the Complaint entitled “Williky’s
Threat to Report Imperial to the SEC and EPA” as a
basis for this disgorgement, Williky correctly points out
that there is no specific cause of action addressing the
alleged extortion. See Dkt. No. 1. In its Complaint, the
SEC included causes of action related to market
manipulation (Counts I – II), insider trading (Counts
III – V), scalping (Counts VI – VIII), and ownership
disclosure (Count IX), but none related to extortion.
Dkt. No. 1 at 16-22. In fact, the section to which the
SEC points appears to have been included not to
address extortion, but rather the insider trading of the
shares received as part of the “severance.” Dkt. No. at
15 (“After receiving the 300,000 shares of Imperial
stock – but before the public learned of the Imperial
fraud – Williky sold those shares . . . .”). Thus the
factual allegation was not sufficient to put Williky on
notice that the SEC would seek disgorgement of the
$1,237,500,2 as opposed to the gains made as a result of
2

In its Complaint, the SEC did not specify what the disgorgement
should cover, instead broadly requesting in its prayer for relief
that the Court “[o]rder Defendant to disgorge all ill-gotten gains
and illegally avoided losses, with prejudgment interest.” Dkt. No.
1 at 23. It is reasonable to read this as referring to gains obtained
through market manipulation, insider trading, and scalping, and
not through the alleged extortion of his employer.

App. 34
those trades. Accordingly, the SEC’s request for such
an award is DENIED.3
4. Prejudgment Interest
The SEC has provided calculations of the amount of
prejudgment interest associated with each of the above
categories of disgorgement. The parties have stipulated
as to the interest rate to be used, Dkt. No. 34-2 at 2,
and Williky does not contest the calculations provided.
Instead, Williky argues that prejudgment interest
should not be awarded for the time period during which
the case was administratively closed.4 Dkt. No. 48 at
29. However, Williky cites no authority for the
proposition that prejudgment interest should not be
awarded for a period in which a case is
administratively closed, nor has the Court located any
Seventh Circuit ruling stating such.5 Denying
prejudgment interest for the period during which the
3

Because the Court denies the SEC’s request for disgorgement of
the alleged extortion payment, it will likewise deny the SEC’s
request for associated prejudgment interest.

4

On August 26, 2015, Judge Jane Magnus-Stinson, who was
previously assigned to this case, stayed and administratively
closed the action pending the resolution of three related criminal
actions. Dkt. No 8. Pursuant to the stay order, the SEC moved to
reopen the case on January 13, 2017, following the resolution of
the criminal cases, and the Court granted the motion on January
19, 2017. Dkt Nos. 13 & 15.

5

Williky also claims that the SEC requested that the case be
administratively closed, Dkt. No. 48 at 29, however, Judge
Magnus-Stinson’s order does not reference such a request, nor is
there any evidence of Williky opposing such an action, see Dkt. No.
8.

App. 35
case was administratively closed would provide a
benefit to Williky because “[g]iven inflation and the
power of money to earn an economic return, a dollar
received [between 2010 and 2012] is worth considerably
more than a dollar in [2018].” Koenig¸ 557 F.3d at 745.
Accordingly, the Court will AWARD prejudgment
interest that includes the time during which the case
was administratively closed: $159,110.13 in connection
with Williky’s insider trading profits and $14,866.97 in
connection with the scalping emails.
B. Civil Penalties
The purpose of penalties is to punish and deter
wrongdoers. SEC v. Moran, 944 F. Supp. 286, 296
(S.D.N.Y. 1996) (citing H.R. Rep. No. 101-616 (1990)).
Penalties may appropriately accompany disgorgement
because “[d]isgorgement is remedial and not punitive.”
MacDonald, 699 F.2d at 54. In determining penalties,
“the court should consider the seriousness of the
violations, the defendant’s intent, whether the
violations were isolated or recurring, whether the
defendant has admitted wrongdoing, the losses or risks
of losses caused by the conduct, and any cooperation
the defendant provided to enforcement authorities.”
SEC v. Church Extension of the Church of God, 429 F.
Supp. 2d. 1045, 1051 (S.D. Ind. 2005). Other sanctions
the defendant faces and ability to pay may also be
considered. Id. at 1051.
1. Non-Insider Trading Penalties
For the non-insider trading violations, the SEC
seeks penalties of varying degrees. For the ownership
disclosure cause of action, the SEC seeks first or second

App. 36
tier penalties. Dkt. No. 39 at 15. First tier penalties can
amount to the greater of $5,000 or the gross amount of
pecuniary gain to the defendant as a result of the
violation, while second tier penalties, which can be
applied if the action “involved fraud, deceit,
manipulation, or deliberate or reckless disregard for a
regulatory requirement,” can amount to the greater of
$50,000 or the gross amount of the pecuniary gain. 15
U.S.C. § 78u(d)(3)(B)(i) & (ii). For the five remaining
counts, addressing market manipulation and scalping
emails, the SEC seeks third tier penalties, which may
not exceed the greater of the $150,000 or the pecuniary
gain to the defendant.6 Dkt. No. 39 at 14-15. Such
penalties are appropriate if the violation “involved
fraud, deceit, manipulation, or deliberate or reckless
disregard of a regulatory requirement; and such
violation directly or indirectly resulted in substantial
losses or created a significant risk of substantial losses
to other persons.” 15 U.S.C. § 78u(d)(3)(B)(iii).
For market manipulation, the Court will impose one
maximum penalty of $150,000. Taking into account
Williky’s prior settlement with the SEC regarding
match and wash trading and the injunction ordered
against him, see In re Gary Williky, SEC Release No.
36986, 1996 SEC LEXIS 741 (Mar. 18, 1996),7 the
6

As the SEC notes, while the statute reads $100,000, 17 C.F.R.
§ 201.1004 raised this amount to $150,000.

7

The Court takes judicial notice of the prior SEC proceedings
against Williky. Ennenga v. Starns, 677 F.3d 766, 773–74 (7th Cir.
2012) (“A court may take judicial notice of facts that are (1) not
subject to reasonable dispute and (2) either generally known
within the territorial jurisdiction or capable of accurate and ready

App. 37
Court believes that the maximum amount of deterrence
is required. Williky has repeatedly committed these
serious violations and worked to create false
impressions of the markets for certain stocks, putting
investors at risk.
The Court, however, declines to impose penalties for
Williky’s scalping emails and failure to report
beneficial ownership. Here the Court notes that it has
already ordered the disgorgement of Williky’s scalping
profits, and that, in light of the penalties to be imposed
for insider trading, further penalties for these actions
would be unduly cumulative. In sum, for the noninsider trading counts, the Court will AWARD a
penalty of $150,000.
2. Insider Trading Penalties
Pursuant to 15 U.S.C. § 78u-1(a)(2), the court may
impose a penalty of up to “three times the profit gained
or loss avoided” for insider trading. Therefore the SEC
asks the Court to impose a penalty of three times the
amount of disgorgement, $798,217, totaling $2,394,651.
While the Court finds a tripling of disgorgement to be
excessive in this case, the Court does find that a
penalty of $1,596,434, equal to two times the amount of
disgorgement, is appropriate. Again, the Court notes
that this is not the first time Williky has had to settle
a dispute with the SEC, and that Williky has not fully
taken responsibility for his actions. Generally
speaking, Williky has “consented to [the bifurcated
settlement] without admitting . . . the allegations of the
determination through sources whose accuracy cannot be
questioned.”).

App. 38
Complaint,” Dkt. No. 34-1, and even when Williky does
admit that he committed some of the insider trading
alleged, he fails to take full responsibility, claiming he
“did so only because he was not thinking clearly while
stressed from threats and worried about providing for
his family.” Dkt. No. 48 at 22. While Williky argues
that his penalty should be reduced as a result of his
cooperation, id. at 25, his cooperation was of limited
value, see Dkt. No. 58 at 16-18. Therefore, the Court
will AWARD a penalty of $1,596,434 for Williky’s
insider trading.
III. Conclusion
Pursuant to the bifurcated settlement and the
pending motions, the Court awards the following:
• Disgorgement of $798,217 for insider trading,
along with $159,110.13 in prejudgment interest;
• Disgorgement of $65,617 for scalping emails,
along with $14,866.97 in prejudgment interest;
• A civil penalty of $150,000 for the non-insider
trading counts; and
• A civil penalty of $1,596,434 for insider trading.
The total amount awarded is $2,784,245.10.
SO ORDERED: 8/3/18
/s/William T. Lawrence
Hon. William T. Lawrence, Judge
United States District Court
Southern District of Indiana
Copies to all counsel of record via electronic notification

App. 39
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
Cause No. 1:15-cv-0357-WTL-MJD
[Filed August 3, 2018]
_____________________________
U.S. SECURITIES AND
)
EXCHANGE COMMISSION, )
)
Plaintiff,
)
)
vs.
)
)
GARY S. WILLIKY,
)
)
Defendant.
)
_____________________________ )
JUDGMENT
The Court ENTERS judgment in favor of the
Plaintiff, the Securities and Exchange Commission
(“SEC”), and against the Defendant, Gary S. Williky, as
follows.
I.
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Defendant is permanently restrained
and enjoined from violating, directly or indirectly,
Section 10(b) of the Securities Exchange Act of 1934
(the “Exchange Act”) [15 U.S.C. § 78j(b)] and Rule 10b5 promulgated thereunder [17 C.F.R. § 240.10b-5], by
using any means or instrumentality of interstate

App. 40
commerce, or of the mails, or of any facility of any
national securities exchange, in connection with the
purchase or sale of any security:
(a)

to employ any device, scheme, or artifice to
defraud;

(b)

to make any untrue statement of a material
fact or to omit to state a material fact
necessary in order to make the statements
made, in the light of the circumstances under
which they were made, not misleading; or

(c)

to engage in any act, practice, or course of
business which operates or would operate as
a fraud or deceit upon any person.

IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, as provided in Federal Rule of Civil
Procedure 65(d)(2), the foregoing paragraph also binds
the following who receive actual notice of this
Judgment by personal service or otherwise:
(a) Defendant’s officers, agents, servants, employees,
and attorneys; and (b) other persons in active concert
or participation with Defendant or with anyone
described in (a).
II.
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Defendant is permanently restrained
and enjoined from violating, directly or indirectly,
Section 9(a) of the Exchange Act [15 U.S.C. § 78i(a)], by
directly or indirectly, by use of the mails or any means
or instrumentality of interstate commerce, or any
facility or member of any national securities exchange,

App. 41
for the purpose of creating a false and misleading
appearance of active trading in any security:
(a) effecting transactions in securities which involved
no change in the beneficial ownership thereof;
(b) entering an order or orders for the purchase of
securities with the knowledge that an order or orders
of substantially the same size, at substantially the
same time, and at substantially the same price, for the
sale of the securities, had been or would be entered by
or for the same or different parties; or (c) entering an
order or orders for the sale of securities with the
knowledge that an order or orders of substantially the
same size, at substantially the same time, and at
substantially the same price, for the purchase of the
securities, had been or would be entered by or for the
same or different parties.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, as provided in Federal Rule of Civil
Procedure 65(d)(2), the foregoing paragraph also binds
the following who receive actual notice of this
Judgment by personal service or otherwise:
(a) Defendant’s officers, agents, servants, employees,
and attorneys; and (b) other persons in active concert
or participation with Defendant or with anyone
described in (a).
III.
IT IS HEREBY FURTHER ORDERED,
ADJUDGED, AND DECREED that Defendant is
permanently restrained and enjoined from violating
Section 13(d) of the Exchange Act [15 U.S.C. § 77m(d)]
and Rule 13d-1 [17 C.F.R. § 240.13d-1] promulgated
thereunder by: failing to file with the Commission a

App. 42
statement containing the information required by
Schedule 13D (as provided in 17 C.F.R. § 240.13d-101),
within 10 days after acquiring directly or indirectly the
beneficial ownership of more than five percent of any
equity security of a class which is specified in Exchange
Act Rule 13d-1(i) [17 C.F.R. § 240.13d-1(i)].
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, as provided in Federal Rule of Civil
Procedure 65(d)(2), the foregoing paragraph also binds
the following who receive actual notice of this
Judgment by personal service or otherwise:
(a) Defendant’s officers, agents, servants, employees,
and attorneys; and (b) other persons in active concert
or participation with Defendant or with anyone
described in (a).
IV.
IT IS HEREBY FURTHER ORDERED,
ADJUDGED, AND DECREED that Defendant is
permanently restrained and enjoined from violating
Section 17(a) of the Securities Act of 1933 (the
“Securities Act”) [15 U.S.C. § 77q(a)] in the offer or sale
of any security by the use of any means or instruments
of transportation or communication in interstate
commerce or by use of the mails, directly or indirectly:
(a)

to employ any device, scheme, or artifice to
defraud;

(b)

to obtain money or property by means of any
untrue statement of a material fact or any
omission of a material fact necessary in order
to make the statements made, in light of the

App. 43
circumstances under which they were made,
not misleading;
or
(c)

to engage in any transaction, practice, or
course of business which operates or would
operate as a fraud or deceit upon the
purchaser.

IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, as provided in Federal Rule of Civil
Procedure 65(d)(2), the foregoing paragraph also binds
the following who receive actual notice of this
Judgment by personal service or otherwise:
(a) Defendant’s officers, agents, servants, employees,
and attorneys; and (b) other persons in active concert
or participation with Defendant or with anyone
described in (a).
V.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, pursuant to Section 21(d)(2) of the
Exchange Act [15 U.S.C. § 78u(d)(2)] and Section 20(e)
of the Securities Act [15 U.S.C. § 77t(e)], Defendant is
prohibited from acting as an officer or director of any
issuer that has a class of securities registered pursuant
to Section 12 of the Exchange Act [15 U.S.C. § 78l] or
that is required to file reports pursuant to Section 15(d)
of the Exchange Act [15 U.S.C. § 78o(d)].
VI.
IT IS HEREBY FURTHER ORDERED,
ADJUDGED, AND DECREED that Defendant shall

App. 44
pay financial remedies in the amount of $2,784,245.10
to the SEC. This includes: (1) disgorgement of
$863,834; (2) $173,977.10 of prejudgment interest; and
(3) $1,746,434 in civil penalties.
VII.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, solely for purposes of exceptions to
discharge set forth in Section 523 of the Bankruptcy
Code, 11 U.S.C. §523, the allegations in the complaint
are true and admitted by Defendant, and further, any
debt for disgorgement, prejudgment interest, civil
penalty or other amounts due by Defendant under this
Judgment or any other judgment, order, consent order,
decree or settlement agreement entered in connection
with this proceeding, is a debt for the violation by
Defendant of the federal securities laws or any
regulation or order issued under such laws, as set forth
in Section 523(a)(19) of the Bankruptcy Code, 11 U.S.C.
§523(a)(19).
VIII.
The Court shall retain jurisdiction of this matter for
the purposes of enforcing the terms of this Judgment.
Dated: 8/3/18
/s/William T. Lawrence
Hon. William T. Lawrence, Judge
United States District Court
Southern District of Indiana

App. 45
Laura Briggs, Clerk
BY: /s/
Deputy Clerk, U.S. District Court
Distribution to all registered counsel by electronic
notification via CM/ECF

App. 46

APPENDIX D
15 U.S.C. § 78u-1. Civil penalties for insider
trading
(a) Authority to impose civil penalties
(1) Judicial actions by Commission authorized
Whenever it shall appear to the Commission that
any person has violated any provision of this
chapter or the rules or regulations thereunder by
purchasing or selling a security or security-based
swap agreement while in possession of material,
nonpublic information in, or has violated any such
provision by communicating such information in
connection with, a transaction on or through the
facilities of a national securities exchange or from or
through a broker or dealer, and which is not part of
a public offering by an issuer of securities other
than standardized options or security futures
products, the Commission-(A) may bring an action in a United States
district court to seek, and the court shall have
jurisdiction to impose, a civil penalty to be paid
by the person who committed such violation; and
(B) may, subject to subsection (b)(1), bring an
action in a United States district court to seek,
and the court shall have jurisdiction to impose,
a civil penalty to be paid by a person who, at the
time of the violation, directly or indirectly

App. 47
controlled the person who committed such
violation.
(2) Amount of penalty for person who
committed violation
The amount of the penalty which may be imposed
on the person who committed such violation shall be
determined by the court in light of the facts and
circumstances, but shall not exceed three times the
profit gained or loss avoided as a result of such
unlawful purchase, sale, or communication.
(3) Amount of penalty for controlling person
The amount of the penalty which may be imposed
on any person who, at the time of the violation,
directly or indirectly controlled the person who
committed such violation, shall be determined by
the court in light of the facts and circumstances, but
shall not exceed the greater of $1,000,000, or three
times the amount of the profit gained or loss
avoided as a result of such controlled person’s
violation. If such controlled person’s violation was a
violation by communication, the profit gained or
loss avoided as a result of the violation shall, for
purposes of this paragraph only, be deemed to be
limited to the profit gained or loss avoided by the
person or persons to whom the controlled person
directed such communication.

App. 48
(b) Limitations on liability
(1) Liability of controlling persons
No controlling person shall be subject to a penalty
under subsection (a)(1)(B) unless the Commission
establishes that-(A) such controlling person knew or recklessly
disregarded the fact that such controlled person
was likely to engage in the act or acts
constituting the violation and failed to take
appropriate steps to prevent such act or acts
before they occurred; or
(B) such controlling person knowingly or
recklessly failed to establish, maintain, or
enforce any policy or procedure required under
section 78o(f) of this title or section 80b-4a of
this title and such failure substantially
contributed to or permitted the occurrence of the
act or acts constituting the violation.
(2) Additional restrictions on liability
No person shall be subject to a penalty under
subsection (a) solely by reason of employing another
person who is subject to a penalty under such
subsection, unless such employing person is liable
as a controlling person under paragraph (1) of this
subsection. Section 78t(a) of this title shall not
apply to actions under subsection (a) of this section.

App. 49
(c) Authority of Commission
The Commission, by such rules, regulations, and orders
as it considers necessary or appropriate in the public
interest or for the protection of investors, may exempt,
in whole or in part, either unconditionally or upon
specific terms and conditions, any person or transaction
or class of persons or transactions from this section.
(d) Procedures for collection
(1) Payment of penalty to Treasury
A penalty imposed under this section shall be
payable into the Treasury of the United States,
except as otherwise provided in section 7246 of this
title and section 78u-6 of this title.
(2) Collection of penalties
If a person upon whom such a penalty is imposed
shall fail to pay such penalty within the time
prescribed in the court’s order, the Commission may
refer the matter to the Attorney General who shall
recover such penalty by action in the appropriate
United States district court.
(3) Remedy not exclusive
The actions authorized by this section may be
brought in addition to any other actions that the
Commission or the Attorney General are entitled to
bring.

App. 50
(4) Jurisdiction and venue
For purposes of section 78aa of this title, actions
under this section shall be actions to enforce a
liability or a duty created by this chapter.
(5) Statute of limitations
No action may be brought under this section more
than 5 years after the date of the purchase or sale.
This section shall not be construed to bar or limit in
any manner any action by the Commission or the
Attorney General under any other provision of this
chapter, nor shall it bar or limit in any manner any
action to recover penalties, or to seek any other
order regarding penalties, imposed in an action
commenced within 5 years of such transaction.
(e) Definition
For purposes of this section, “profit gained” or “loss
avoided” is the difference between the purchase or sale
price of the security and the value of that security as
measured by the trading price of the security a
reasonable period after public dissemination of the
nonpublic information.
(f) Limitation on Commission authority
The authority of the Commission under this section
with respect to security-based swap agreements shall
be subject to the restrictions and limitations of section
78c-1(b) of this title.

App. 51
(g) Duty of Members and employees of Congress
(1) In general
Subject to the rule of construction under section 10
of the STOCK Act and solely for purposes of the
insider trading prohibitions arising under this
chapter, including section 78j(b) of this title and
Rule 10b-5 thereunder, each Member of Congress or
employee of Congress owes a duty arising from a
relationship of trust and confidence to the Congress,
the United States Government, and the citizens of
the United States with respect to material,
nonpublic information derived from such person’s
position as a Member of Congress or employee of
Congress or gained from the performance of such
person’s official responsibilities.
(2) Definitions
In this subsection-(A) the term “Member of Congress” means a
member of the Senate or House of
Representatives, a Delegate to the House of
Representatives, and the Resident
Commissioner from Puerto Rico; and
(B) the term “employee of Congress” means-(i) any individual (other than a Member of
Congress), whose compensation is disbursed
by the Secretary of the Senate or the Chief
Administrative Officer of the House of
Representatives; and

App. 52
(ii) any other officer or employee of the
legislative branch (as defined in section
109(11) of the Ethics in Government Act of
1978 (5 U.S.C. App. 109(11))).
(3) Rule of construction
Nothing in this subsection shall be construed to
impair or limit the construction of the existing
antifraud provisions of the securities laws or the
authority of the Commission under those provisions.
(h) Duty of other Federal officials
(1) In general
Subject to the rule of construction under section 10
of the STOCK Act and solely for purposes of the
insider trading prohibitions arising under this
chapter, including section 78j(b) of this title, and
Rule 10b-5 thereunder, each executive branch
employee, each judicial officer, and each judicial
employee owes a duty arising from a relationship of
trust and confidence to the United States
Government and the citizens of the United States
with respect to material, nonpublic information
derived from such person’s position as an executive
branch employee, judicial officer, or judicial
employee or gained from the performance of such
person’s official responsibilities.
(2) Definitions
In this subsection-(A) the term “executive branch employee”--

App. 53
(i) has the meaning given the term
“employee” under section 2105 of Title 5;
(ii) includes-(I) the President;
(II) the Vice President; and
(III) an employee of the United States
Postal Service or the Postal Regulatory
Commission;
(B) the term “judicial employee” has the
meaning given that term in section 109(8) of the
Ethics in Government Act of 1978 (5 U.S.C. App.
109(8)); and
(C) the term “judicial officer” has the meaning
given that term under section 109(10) of the
Ethics in Government Act of 1978 (5 U.S.C. App.
109(10)).
(3) Rule of construction
Nothing in this subsection shall be construed to
impair or limit the construction of the existing
antifraud provisions of the securities laws or the
authority of the Commission under those provisions.
(i) Participation in initial public offerings
An individual described in section 101(f) of the Ethics
in Government Act of 1978 may not purchase securities
that are the subject of an initial public offering (within
the meaning given such term in section 78l (f)(1)(G)(i))
of this title) in any manner other than is available to
members of the public generally.

